     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
October 13, 2010                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278

Report Number: A-02-09-01021

Mr. Jim Elmore
Regional Vice President, Contract Administration
National Government Services
Mail Stop: INA 102-AF13
8115 Knue Road
Indianapolis, IN 46250

Dear Mr. Elmore:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Resident Data Reported in the Intern and Resident
Information System for Medicare Cost Reports Submitted to National Government Services. We
will forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-02-09-01021 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services

Enclosure

HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
ROkcmORA@cms.hhs.gov
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF RESIDENT DATA REPORTED
   IN THE INTERN AND RESIDENT
INFORMATION SYSTEM FOR MEDICARE
   COST REPORTS SUBMITTED TO
 NATIONAL GOVERNMENT SERVICES




                        Daniel R. Levinson
                         Inspector General

                          October 2010
                          A-02-09-01021
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                              INTRODUCTION

BACKGROUND

Medicare Payments for Graduate Medical Education

Since its inception in 1965, the Medicare program has shared in the costs of educational
activities incurred by participating hospitals. The Centers for Medicare & Medicaid Services
(CMS), which administers the Medicare program, makes two types of payments to teaching
hospitals to support graduate medical education (GME) programs for physicians and other
practitioners. Direct GME payments are Medicare’s share of the direct costs of training interns
and residents, such as salaries and fringe benefits of residents and faculty and hospital overhead
expenses. For the purpose of this report, we use the term “resident” to also include hospital
interns. Indirect GME payments cover the costs associated with using more intensive treatments,
treating sicker patients, using a costlier staff mix, and ordering more tests.

Hospitals claim reimbursement for both direct and indirect GME through annual Medicare cost
reports based on formulas that use fixed base costs and the number of full-time equivalent (FTE)
residents trained by the hospital. 1 Pursuant to 42 CFR § 412.105(f)(1)(iii)(A), FTE status is
based on the total time necessary to fill a residency slot. If a resident is assigned to more than
one hospital, the resident counts as a partial FTE based on the proportion of time worked in the
hospital. A hospital cannot claim the time spent by residents training at another hospital.

The amount of Medicare funds received by each hospital is determined, in large part, by the
number of FTE residents it trains and the proportion of training time that its residents spend in
the institution. 2 Pursuant to 42 CFR §§ 412.105(f) and 413.78(b), no individual may be counted
as more than one FTE. For each resident for which it claims GME, hospitals must provide CMS
with information on the resident’s program, year of residency, dates and locations of training
(including training at other hospitals), and percentage of time working at these locations
(42 CFR §§ 412.105(f) and 413.75(d)).

Intern and Resident Information System

CMS makes available the Intern and Resident Information System (IRIS), a software application
used by hospitals to collect and report information on residents working in approved residency
programs at teaching hospitals. Hospitals receiving direct and/or indirect GME must submit
IRIS data files containing information on their residents, including, but not limited to, the dates
of each rotational assignment with each annual Medicare cost report. According to 72 Federal
Register 69692 (Dec. 10, 2007), the primary purpose of the IRIS is to ensure that no resident is
counted by the Medicare program as more than one FTE employee in the calculation of

1
 Pursuant to 42 CFR § 413.76, hospitals are paid for direct GME costs based on Medicare’s share of a hospital-
specific per resident amount multiplied by the number of FTE residents.
2
 For payment purposes, the total number of FTE residents is the 3-year “rolling average” of the hospital’s actual
FTE count for the current year and the preceding two cost reporting periods.


                                                         1
payments for the costs of direct and indirect GME.

National Government Services, Inc.

National Government Services, Inc. (NGS), is a Medicare Administrative Contractor (MAC) 3
under contract with CMS to administer the Medicare Part A (hospital insurance) program in
several MAC jurisdictions. NGS administers the program for MAC Jurisdiction 13, which
comprises two States—New York and Connecticut. As part of its MAC responsibilities, NGS
performs reviews of hospitals’ annual Medicare cost reports to ensure compliance with Medicare
reimbursement principles. In addition, NGS reviews the IRIS data submitted by providers in its
jurisdiction to ensure that the data support FTE amounts filed on cost reports and to identify any
residents whose rotations overlapped with other hospitals in its jurisdiction.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our review was to determine whether NGS adequately ensured that no resident
was counted as more than one FTE in the calculation of Medicare GME payments.

Scope

We reviewed IRIS data submitted to NGS by providers in MAC Jurisdiction 13 to support
resident training costs claimed on annual Medicare cost reports covering the period
January 1, 2006, through December 31, 2007.

We did not assess NGS’s overall internal control structure. Rather, we limited our review of
internal controls to those applicable to our objective, which did not require an understanding of
all internal controls over the Medicare program. Specifically, we reviewed the procedures that
NGS had in place to prevent residents from being counted as more than one FTE on costs
reports.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal Medicare laws, regulations, and guidance;

    •   met with NGS officials to gain an understanding of NGS’s procedures related to
        reviewing IRIS data submitted by hospitals in MAC Jurisdiction 13;



3
 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, Pub. L. No. 108-
173, required CMS to transfer the functions of fiscal intermediaries and carriers to MACs between October 2005
and October 2011.


                                                       2
       •   obtained IRIS data from NGS for all hospitals in MAC Jurisdiction 13; 4

       •   analyzed IRIS data to identify residents claimed by more than one hospital for the same
           rotational assignment;

       •   compared these overlapping rotational assignments to those identified by NGS; and

       •   selected a judgmental sample of 11 NGS desk reviews of annual Medicare cost reports
           submitted by hospitals in MAC Jurisdiction 13 for fiscal years ended 2006 and 2007 to
           determine whether NGS identified all overlapping rotational assignments for which the
           total FTE count per resident was greater than one and excluded those FTEs from the
           hospitals’ GME payment calculation.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                            RESULTS OF REVIEW

NGS had procedures in place to adequately ensure that no resident was counted as more than one
FTE in the calculation of Medicare GME payments for hospitals in MAC Jurisdiction 13.
Accordingly, we have no recommendations.




4
    For fiscal years ended 2006 and 2007, 139 and 137 hospitals, respectively, submitted IRIS data to NGS.

                                                           3
